U.S. Office of Personnel Management
Office of Inspector General
Attention: W. W. Scott, Jr.
Room 6400
1900 E Street, N.W.
Washington, DC 20415

Dear Mr. Scott:

Enclosed for your information is the report Independent Accountant’s Report on the Application
of Agreed-Upon Procedures: Employee Benefits, Withholdings, Contributions, and
Supplemental Semiannual Headcount Reporting Submitted to the Office of Personnel
Management (AUD/FM-12-01, Oct. 2011).

The report, prepared at the direction of the Office of Inspector General by Kearney & Company,
P.C., is required by Office of Management and Budget Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements, as amended. The procedures were performed to assist the
Office of Personnel Management (OPM) in assessing the reasonableness of the retirement, health
benefits, and life insurance withholdings and contributions, as well as semiannual headcount
information, submitted to OPM by the Department of State. The procedures will also assist
OPM in identifying and correcting errors relating to processing and distributing Combined
Federal Campaign payroll deductions.

If you have any questions about this report, please have your staff contact Gayle L. Voshell,
Director of the Financial Management Division, at (703) 284-2681 or by email at
voshellg@state.gov. You may also contact Evelyn R. Klemstine, Assistant Inspector General for
Audits, at (202) 663-0372 or by e-mail at klemstinee@state.gov.

Sincerely,



Harold W. Geisel
Deputy Inspector General

Enclosure: As stated.

cc: RM – (b) (6)
    RM/DCFO – (b) (6)
         U.S. Department of State
Independent Accountant’s Report on the Application
  of Agreed-Upon Procedures: Employee Benefits,
  Withholdings, Contributions, and Supplemental
 Semiannual Headcount Reporting Submitted to the
         Office of Personnel Management

                                 AUD/FM-12-01

                                 October 3, 2011




                                         Point of Contact:
                                    Jeff Green, Senior Partner
                                   1701 Duke Street, Suite 500
                                      Alexandria, VA 22314
                               703-931-5600, 703-931-3655 (fax)
                                     jgreen@kearneyco.com
         Kearney & Company’s TIN is 54-1603527, DUNS is 18-657-6310, Cage Code is 1SJ14
                            Independent Accountant’s Report
    on the Application of Agreed-Upon Procedures: Employee Benefits, Withholdings,
   Contributions, and Supplemental Semiannual Headcount Reporting Submitted to the
                             Office of Personnel Management


The Honorable Patrick E. McFarland
U.S. Office of Personnel Management

Kearney & Company, P.C. (referred to as “we” in this report) performed the procedures
described in the enclosure to this report, which were agreed to by the Inspector General and the
Chief Financial Officer of the U.S. Office of Personnel Management (OPM). These procedures
were performed to assist OPM in assessing the reasonableness of retirement, health benefits, and
life insurance withholdings and contributions as well as enrollment information submitted via the
Semiannual Headcount Report by the Department of State (Department) for the payroll periods
ended August 28, 2010, February 12, 2011, and February 26, 2011. In addition, the procedures
were performed to assist OPM in identifying and correcting errors relating to processing and
distributing Combined Federal Campaign payroll deductions.

This AUP engagement was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants and generally accepted government auditing
standards. The sufficiency of these procedures and related subject matter is solely the
responsibility of the Inspector General and the Chief Financial Officer of OPM. Consequently,
we make no representation regarding the sufficiency of the procedures described in the enclosure
either for the purpose for which this report has been requested or for any other purpose.

The procedures and associated results are presented in the enclosure.

We were not engaged to and did not conduct an examination, the objective of which would be
the expression of an opinion on the withholdings and contributions for retirement, health
benefits, and life insurance, and the Semiannual Headcount Reports of the Department.
Accordingly, we do not express such an opinion. Had we performed additional procedures, other
matters might have come to our attention that would have been reported to you.

This report is intended solely for the information and use of the Inspector General and the Chief
Financial Officer of OPM and is not intended to be and should not be used by anyone other than
these specified parties. However, the report is a matter of public record, and its distribution is
not limited.




Alexandria, Virginia
September 29, 2011

Enclosure


                                                 1
                          Procedures Agreed Upon                                     Findings/Comments
Obtain the agency payroll provider’s (APP) September 2010 and March 2011           Completed.
Semiannual Headcount Report submitted to OPM and a summary of                      Selected pay periods 17
Retirement and Insurance Transfer System (RITS) submissions for September          and 4, which coincided
2010 and the current fiscal year. For Retirement, Health Benefits, and Life        with the September 2010
Insurance, select a total of three RITS submissions for September 2010 and         and March 2011
the current fiscal year; two will coincide with the September 2010 and March       Semiannual Headcount
2011 Semiannual Headcount Report. Obtain payroll information for the               Reports, respectively.
periods covered by the RITS submissions selected.                                  The third pay period
                                                                                   selected was pay period 3.

1. Compare RITS submission data to the payroll information by performing
the following procedures (Note: For cross-servicing agencies, if the internal
controls are the same for all agencies serviced, it is only necessary to perform
this procedure for one agency.):

1.a. Recalculate the mathematical accuracy of the payroll information.             Completed.

1.b. Recalculate the mathematical accuracy of each RITS submission for the         Completed.
payroll information selected in step 1.a.

1.c. Compare the employee withholding information at the aggregate level for       Completed.
Retirement, Health Benefits, and Life Insurance (as adjusted for reconciling
items) shown on the payroll information obtained in step 1.a. to the related
amounts shown on the RITS submission for the corresponding period.

Report any differences for each of the Retirement, Health Benefits, and Life       Completed.
Insurance (categories) for step 1.c. that are over one percent of the aggregate    The comparison of
amount reported for each of the three categories. Obtain from management a         Federal Employees
management official name, an explanation, telephone number, and an email           Retirement System
address for the differences above the one percent threshold.                       (FERS) withholdings for
                                                                                   pay period 3 resulted in a
                                                                                   difference over one
                                                                                   percent. The amount of
                                                                                   FERS withholdings
                                                                                   reported in the RITS
                                                                                   submission was
                                                                                   $12,240.42 (4.45 percent)
                                                                                   less than the amount in
                                                                                   the payroll register.
                                                                                   Management was unable
                                                                                   to explain this difference.

                                                                                   Contact Information:
                                                                                   Paul McVicker, Director,



                                                     2
                         Procedures Agreed Upon                                   Findings/Comments
                                                                                Financial Coordination
                                                                                and Reports Division
                                                                                mcvickerpj@state.gov
                                                                                (843) 202-3858

                                                                                Jeff Mounts, Managing
                                                                                Director, Global
                                                                                Compensation
                                                                                mountsjc@state.gov
                                                                                (843) 308-5301

2.a. Randomly select a total of 25 individuals who were in the payroll system   Completed.
for all three of the RITS submissions selected above that meet all the
following criteria:

   •   Covered by the Civil Service Retirement System (CSRS) or the
       Federal Employees Retirement System (FERS);
   •   Enrolled in the Federal Employees Health Benefits Program;
   •   Covered by Basic Life Insurance; and
   •   Covered by at least one Federal Employees’ Group Life Insurance
       (FEGLI) optional coverage (Option A, B, or C).

2.b. Obtain the following documents, either in electronic or hard-copy format, Completed.
from the Official Personnel File (OPF) for each individual selected in step
2.a. Hard copies can be originals or certified copies.

   •   All Notifications of Personnel Actions (SF-50) covering the pay
       periods in the RITS submissions chosen;

   •   The Health Benefits Election Form (SF-2809) covering the pay
       periods in the RITS submissions chosen or, if applicable, obtain a
       report (via the agency personnel office) from the agency’s automated
       system that allows participants to change benefits (e.g., Employee
       Express) for any Health Benefits transactions in that system for the
       individuals selected in step 2.a. (Note: a new SF-2809 is needed only
       if an employee is changing health benefit plans; therefore, the form
       could be many years old.); and

          For Health Benefits, compare date of transaction with date on the    Completed.
           certified copy of the SF-2809 or the agency’s automated system
           report obtained above to identify whether the health benefit
           information to be used in step 2.f. covers the pay periods in the
           RITS submissions chosen.




                                                   3
                          Procedures Agreed Upon                                     Findings/Comments
   •   The Life Insurance Election Form (SF-2817) covering the pay periods
       in the RITS submission chosen. (Note: a new SF-2817 is needed only
       if an employee is changing life insurance coverage; therefore, the form
       could be many years old.)


2.c. For each individual selected in step 2.a., compare the base salary used for   Completed.
payroll purposes and upon which withholdings and contributions generally           No differences were
are based to the base salary reflected on the employee’s SF-50. Report any         found as a result of
differences resulting from this step, and obtain management’s explanation for      applying this procedure.
the differences.


2.d. For Retirement for each individual selected in step 2.a., compare the         Completed.
retirement plan code from the employee’s SF-50 to the plan code used in the        No differences were
payroll system. Report any differences resulting from this step, and obtain        found as a result of
management’s explanation for the differences.                                      applying this procedure.

2.e. For each individual selected in step 2.a., calculate the retirement amount    Completed.
to be withheld and contributed for the plan code from the employee’s SF-50         No differences were
by multiplying the base salary from the employee’s SF-50 by the official           found as a result of
withholding and contribution rates required by law. Compare the calculated         applying this procedure.
amounts with the actual amounts withheld and contributed for the retirement
plan. Report any differences resulting from this step, and obtain
management’s explanation for the differences.

2.f. For Health Benefits for each individual selected in step 2.a., compare the    Completed.
employee withholdings and agency contributions to the official subscription        No differences were
rates issued by OPM for the plan and option elected by the employee, as            found as a result of
documented by a Health Benefits Election Form (SF-2809) in the employee’s          applying this procedure.
OPF or automated system that allows the participant to change benefits (e.g.,
Employee Express). Report any differences resulting from this step, and
obtain management’s explanation for the differences. The Health Benefits
rates can be found on OPM’s website at
http://www.opm.gov/insure/health/rates/index.asp.

2.g. For Life Insurance for each individual selected in step 2.a., confirm that    Completed.
Basic Life Insurance was elected by the employee by inspecting the Life            No differences were
Insurance Election Form (SF-2817) documented in the employee’s OPF.                found as a result of
Report any differences resulting from this step, and obtain management’s           applying this procedure.
explanation for the differences.

2.h. For each individual selected in step 2.a., calculate the withholding and
contribution amounts for Basic Life Insurance using the following:



                                                     4
                          Procedures Agreed Upon                                     Findings/Comments

   •   For employee withholdings: Round the employee's annual base salary          Completed.
       up to the nearest thousand dollars and add $2,000. Divide this total by
       1,000, and multiply by the rate required by law. The Life Insurance
       rates can be found in the FEGLI Program Booklet on OPM’s website
       at http://www.opm.gov/insure/life/rates/index.asp.

   •   For agency contributions: Divide the employee withholdings                  Completed.
       calculated above by two.

Compare the calculated employee withholdings and agency contributions              Completed.
with the actual amounts withheld and contributed for Basic Life Insurance.         No differences were
Report any differences resulting from this step, and obtain management’s           found as a result of
explanation for the differences.                                                   applying this procedure.

2.i. Also, for Life Insurance for each individual selected in step 2.a., compare   Completed.
optional coverage elected as documented on the SF-2817 in the employee’s           The FEGLI election in the
OPF to the optional coverage documented in the payroll system. Report any          payroll system did not
differences resulting from this step, and obtain management’s explanation for      agree with the election
the differences.                                                                   form in the OPF for two
                                                                                   of 25 employees.
                                                                                   The Department could not
                                                                                   provide updated forms
                                                                                   supporting the employees’
                                                                                   life insurance elections.

2.j. For each individual selected in step 2.a., calculate the withholding
amounts for optional life insurance using the following:

   •   For Option A: Locate the employee’s age group using the age groups          Completed.
       provided for Option A in the FEGLI Program Booklet. The                     No differences were
       withholding amount to be used is the rate listed in the FEGLI Program       found as a result of
       Booklet for that age group. Compare the calculated amount with the          applying this procedure.
       amount withheld for Option A Life Insurance. Report any differences
       resulting from this step, and obtain management’s explanation for the
       differences.

   •   For Option B: Inspect the SF-2817 to obtain the number of multiples         Completed.
       chosen for Option B. Locate the employee’s age group using the age          Based on employee
       groups provided for Option B in the FEGLI Program Booklet. Round            elections on the SF-2817,
       the employee’s annual rate of basic pay up to the next 1000, divide by      the amount calculated did
       1000, and multiply by the rate for the respective age group. Multiply       not match the amount
       this amount by the number of multiples chosen for Option B Life             withheld for FEGLI
       Insurance. Compare the calculated amount with the amount withheld           Option B for one of 25



                                                     5
                         Procedures Agreed Upon                                    Findings/Comments
       for Option B Life Insurance. Report any differences resulting from        employees; the difference
       this step, and obtain management’s explanation for the differences.       was $3.18. Management
                                                                                 was unable to explain this
                                                                                 difference.

   •   For Option C: Inspect the SF-2817 to obtain the number of multiples       Completed.
       chosen for Option C. Locate the employee’s age group using the age        Based on employee
       groups provided for Option C in the FEGLI Program Booklet.                elections on the SF-2817,
       Multiply the rate for the age group by the number of multiples chosen     the amount calculated did
       for Option C Life Insurance. Compare the calculated amount with the       not match the amount
       amount withheld for Option C Life Insurance. Report any differences       withheld for FEGLI
       resulting from this step, and obtain management’s explanation for the     Option C for one of 25
       differences.                                                              employees; the difference
                                                                                 was $1.45. Management
                                                                                 was unable to explain this
                                                                                 difference.

3. Randomly select a total of 10 employees who have no Health Benefits           Completed.
withholdings from the payroll information corresponding to the three RITS
submissions selected above, and perform the following steps for each
employee selected:

3.a. Obtain SF-2809s covering the pay periods in the RITS submissions           Completed.
chosen, either in electronic or hard-copy format, from the selected employee’s
OPF or, if applicable, obtain a report (via the agency personnel office ) from
the agency’s automated system that allows participants to change benefits
(e.g., Employee Express) for any Health Benefit transactions in that system
for the individuals selected. Hard copies can be originals or certified copies.
Inspect the documentation (i.e., SF-2809 or the agency’s system-generated
report) to identify whether health benefits coverage was not elected. This can
be identified in the following ways:

   •   absence of an SF-2809 in the OPF and no election of coverage made
       through the agency’s automated system that allows participants to
       change benefits (e.g., Employee Express), or

   •   an SF-2809 in the OPF with Section E checked (indicating
       cancellation of coverage) and no later election of coverage through the
       agency’s automated system that allows participants to change benefits
       (e.g., Employee Express), or

   •   cancellation of coverage through the agency’s automated system that
       allows participants to change benefits (e.g., Employee Express) and no
       later election of coverage with an SF-2809.



                                                   6
                         Procedures Agreed Upon                                    Findings/Comments

3.b. Compare the result in step 3.a. with the RITS submissions. Report any       Completed.
differences resulting from this step, and obtain management’s explanation for    No differences were
the differences.                                                                 found as a result of
                                                                                 applying this procedure.

4. Randomly select a total of 10 employees who have no Life Insurance            Completed.
withholdings from the payroll information corresponding to the three RITS
submissions selected above, and perform the following steps for each
employee selected:

4.a. Obtain the SF-2817s covering the pay periods in the RITS submissions      Completed.
chosen, either in electronic or hard-copy format, from the selected employee’s
OPF. Hard copies can be originals or certified copies. Inspect the SF-2817 to
identify that the employee waived or cancelled Basic Life Insurance
coverage.

4.b. Compare the result in step 4.a. with the RITS submissions. Report any       Completed.
differences resulting from this step, and obtain management’s explanation for    No differences were
the differences.                                                                 found as a result of
                                                                                 applying this procedure.

5. Calculate the headcount reflected on the September 2010 and March 2011
Semiannual Headcount Report selected as follows:

5.a. Obtain existing payroll information (from step 1.a.) supporting each        Completed.
Supplemental Semiannual Headcount report. If existing payroll data are not
available, obtain a payroll system query that summarizes detailed payroll data
supporting each Supplemental Semiannual Headcount Report, as follows:

   •   Benefit Category (see Semiannual Headcount Report).
   •   Dollar Amount of withholdings and contributions.
   •   Number Enrolled (deductions made/no deductions).
   •   Central Personnel Data File Code.
   •   Aggregate Base Salary.

5.b. Recalculate the Headcount reflected on each Semiannual Headcount            Completed.
Report. If an electronic file is not available, a suggested method of
recalculating the Headcount is as follows: (1) estimate the number of
employees per payroll register page by counting the employees listed on
several pages, (2) count the number of pages in the payroll register, and (3)
multiply the number of employees per page by the number of pages or count
(using a computer audit routine) the number of employees on the payroll data
file for the period.



                                                   7
                         Procedures Agreed Upon                                   Findings/Comments

5.c. Compare the payroll information obtained in step 5.a. and the calculated   Completed.
headcount from step 5.b. with the information shown on each respective
Semiannual Headcount Report.

5.d. Report any differences (i.e., gross rather than net) greater than two      Completed.
percent between the Headcount reporting on each respective agency               One difference greater
Semiannual Headcount Report and payroll information from step 5.a. and the      than two percent was
calculated Headcount from step 5.b. Obtain from management a management         observed in pay periods
official name, telephone number, an email address, and an explanation for the   17, 3, and 4 related to the
differences.                                                                    U.S. Trade Headcount
                                                                                Reports. The Department
                                                                                reported a total headcount
                                                                                of 15 in the Semiannual
                                                                                Headcount Report; the
                                                                                total headcount in the
                                                                                payroll register was 17.
                                                                                Based on inquiry, the
                                                                                difference is due to the
                                                                                inclusion of records for
                                                                                two individuals who are
                                                                                personal services
                                                                                contractors (PSC). PSCs
                                                                                are not employees and do
                                                                                not contribute to FEGLI,
                                                                                FEHB, or retirement; the
                                                                                Department accounts for
                                                                                PSCs for tax withholding
                                                                                purposes.

                                                                                In addition, one difference
                                                                                greater than two percent
                                                                                was observed in pay
                                                                                periods 3 and 4 related to
                                                                                the U.S. Citizenship and
                                                                                Immigration Services
                                                                                (USCIS) Headcount
                                                                                Reports. The Department
                                                                                reported a total headcount
                                                                                of four for pay period 3
                                                                                and five for pay period 4
                                                                                in the Semiannual
                                                                                Headcount Report; the
                                                                                total headcount in the



                                                    8
                         Procedures Agreed Upon                                    Findings/Comments
                                                                                 payroll register was 262
                                                                                 for pay period 3 and 263
                                                                                 for pay period 4. Based
                                                                                 on inquiry, the
                                                                                 Department stated that it
                                                                                 is unable to access the
                                                                                 USCIS payroll office. The
                                                                                 Department must wait for
                                                                                 access to be granted to
                                                                                 update the Headcount
                                                                                 Reports for 258 USCIS
                                                                                 employees. The
                                                                                 Department has notified
                                                                                 OPM about this issue.

                                                                                 Contact Information:
                                                                                 Paul McVicker, Director,
                                                                                 Financial Coordination
                                                                                 and Reports Division
                                                                                 mcvickerpj@state.gov
                                                                                 (843) 202-3858

                                                                                 Jeff Mounts, Managing
                                                                                 Director, Global
                                                                                 Compensation
                                                                                 mountsjc@state.gov
                                                                                 (843) 308-5301

6. Calculate employer and employee contributions for Retirement, Health
Benefits, and Life Insurance as follows:

6.a. Calculate Retirement withholdings and contributions for the three pay
periods selected in step 1.a., as follows:

  i.   Multiply the CSRS and FERS payroll base by the withholding and            Completed.
       employer contribution rates required by law.

 ii.   Compare the calculated totals from step 6.a.i. with the related amounts   Completed.
       shown on the RITS submissions. Report any differences (i.e., gross        No differences greater
       rather than net) between the calculated amounts and the amounts           than five percent were
       reported on the RITS submissions greater than five percent of the         found as a result of
       amounts on the RITS submission, and obtain management’s                   applying this procedure.
       explanation for the differences.




                                                   9
                          Procedures Agreed Upon                                      Findings/Comments
6.b. Calculate employee withholdings and employer contributions for Health
Benefits for the three pay periods selected in step 1.a. as follows:

   i.   Multiply the number of employees enrolled in each Health Benefits           Completed.
        plan and plan option by the employee withholdings and employer
        contributions for the plan and option.

 ii.    Sum the totals in step 6.b.i., and compare the result with the Health       Completed.
        Benefit withholding and contribution amounts shown on the RITS              No differences greater
        submissions. Report any differences (i.e., gross rather than net)           than five percent were
        between the calculated amounts and the amounts reported on the RITS         found as a result of
        submissions greater than five percent of the amounts on the RITS            applying this procedure.
        submission, and obtain management’s explanation for the differences.

6.c. Calculate the Basic Life Insurance employee withholdings and employer
contributions for the three pay periods selected in step 1.a., as follows:

   i.   Obtain a payroll system query from APP personnel to obtain the total        Completed.
        number of employees with Basic Life Insurance coverage and the
        aggregate annual basic pay for all employees with Basic Life
        Insurance.

 ii.    For employee withholdings: Add the product of 2,000 times the               Completed.
        number of employees with Basic Life Insurance coverage from step
        6.c.i. above to the aggregate annual basic pay for all employees with
        Basic Life Insurance from step 6.c.i. above to calculate the estimated
        total Basic Life Insurance coverage. Divide this calculated total by
        1,000 and multiply by the withholding rate required by law. The Life
        Insurance withholding rates can be found in the FEGLI Program
        Booklet on OPM’s website.

 iii.   Compare the result in step 6.c.ii. with the withholdings for Basic Life     Completed.
        Insurance coverage reported on the RITS submission. Report any              No differences greater
        difference (i.e., gross rather than net) between the estimate and the       than five percent were
        amount of withholdings reported on the RITS submission greater than         found as a result of
        five percent of the amounts on the RITS submission, and obtain              applying this procedure.
        management’s explanation for the difference.

 iv.    For agency contributions: Divide the results of step 6.c.ii. by two (this   Completed.
        approximates agency contributions, which are one-half of employee           No differences greater
        withholdings). Compare this result with the amount reported on the          than five percent were
        RITS submission. Report any differences (i.e., gross rather than net)       found as a result of
        between the estimated amount and the actual amount reported on the          applying this procedure.
        RITS submission greater than five percent of the amounts on the RITS



                                                     10
                              Procedures Agreed Upon                                     Findings/Comments
           submission, and obtain management’s explanation for the differences.

6.d. Calculate the Option A, Option B, and Option C Life Insurance coverage
withholdings for the three pay periods selected by using detailed payroll
reports used to reconcile the RITS reports in step 1. In addition to the
information used for step 1, the reports should include the employee's date of
birth, annual rate of basic pay, and number of multiples selected for Options
B and C. (Note: While similar to step 2.j., the calculation at this step is for the
entire amount reported on the RITS submissions for the three pay periods
selected, as opposed to the sample of 25 employees in step 2.j.)

   i.      Multiply the number of employees in each age group by the                   Completed.
           appropriate rate for Option A in accordance with the rates for age
           groups provided in the FEGLI Program Booklet.

 ii.       Compare the result in step 6.d.i. with the amounts for Option A             Completed.
           reported on the RITS submissions. Report any differences (i.e., gross       No differences greater
           rather than net) greater than two percent of the amounts on the RITS        than two percent were
           submission, and obtain management’s explanation for the differences.        found as a result of
                                                                                       applying this procedure.

 iii.      Segregate the reports for Option B and Option C insurance into the          Completed.
           age groups shown in the FEGLI Program Booklet. For Option B,
           round the employee's annual rate of basic pay up to the next 1000,
           divide by 1000, multiply by the rate for the age group, and multiply
           this by the number of multiples:

           (Annual rate of basic pay (rounded up) /1000*rate*multiples).

           For Option C, multiply the rate for the age group by the number of
           multiples chosen for each employee.

 iv.       Compare the result in step 6.d.iii. with the amounts for Option B and       Completed.
           Option C, respectively, reported on the RITS submissions. Report any        No differences greater
           differences (i.e., gross rather than net) greater than two percent of the   than two percent were
           amounts on the RITS submission for Option B or Option C, and                found as a result of
           obtain management’s explanation for the differences.                        applying this procedure.

For Steps 7-9, obtain the following documentation for the federal agencies
serviced by the APP:

        a) A list of all field offices/duty stations in existence during the Fall 2010 Completed.
           Combined Federal Campaign (CFC) solicitation period (September 1,
           2010 through December 15, 2010) for each federal agency serviced.



                                                        11
                           Procedures Agreed Upon                                     Findings/Comments
       The list must include the county, city, state, and zip code for the field
       office.
    b) A list of all local CFC campaigns and the areas they cover. This list        Completed.
       should be obtained directly from the OPM Office of CFC Operations
       (OCFCO).
    c) A list of accounting codes used by the APP to identify each local CFC        Completed.
       campaign. The list should include the accounting code, name of
       campaign, name of Principal Combined Fund Organization (PCFO)
       for that campaign, and address of PCFO.
    d) A report of all employees with CFC deductions from the RITS                  Completed.
       submission selected to coincide with the March 2011 Semiannual
       Headcount. The report must include each employee’s official duty
       station location and the APP’s accounting code identifying the
       campaign to which each employee’s funds are being distributed.

7. Compare the list of field offices/duty stations to the list of local CFC
campaigns obtained from OPM’s OCFCO.

7.a. Determine in which campaign each field office/duty station is located.         Completed.
(Note: It is possible for a field office/duty station to be in a location with no
local CFC campaign.)

8. Compare the list of accounting codes to the identified campaigns for each
field office/duty station.

8.a. Determine the accounting code for each field office/duty station.              Completed.

8.b. Determine if the name of the campaign, the PCFO, and address of the            Completed.
PCFO in the APP system agree to the information for that field office/duty
station on the list of local CFC campaigns obtained from OPM’s OCFCO.

9. Sort the report of all employees with CFC deductions by Official Duty
Station.

9.a. Compare the Official Duty Stations to the campaigns identified for those       Completed.
locations.

9.b. Compare the Accounting Codes for each employee with CFC deductions             Completed.
to the accounting code identified for that employee’s Official Duty Station.

CFC AUP Evaluation: Report all instances of the following, as findings.             No findings were noted as
                                                                                    a result of applying the
    •   The name of the campaign, PCFO, or address of the PCFO on the list          CFC procedures.
        of accounting codes from the Federal Payroll Office does not agree to



                                                      12
                     Procedures Agreed Upon                                Findings/Comments
    the information on the list of all local CFC campaigns obtained from
    OPM’s OCFCO.
•   A federal agency has a CFC deduction for an employee whose official
    duty station is in an area with no local CFC campaign.
•   The accounting code for an employee with CFC deductions does not
    agree to the accounting code for that employee’s Official Duty
    Station.




                                              13
